r .J'SERVICES

                              DEPARTMENT OF
                                         OF HEALTH
                                            HEALTH &
                                                   & HUMAN
                                                     HUMANSERVICES
                                                           SERVICES

\~~
                              DEPARTMENT                                                                                 Office
                                                                                                                         Offce of
                                                                                                                                ofInspector
                                                                                                                                   InspectorGeneral
                                                                                                                                            General

 ,~ ~
:,/"..If~'''3a
                                                                                                                         Washington,
                                                                                                                         Washington, D.C.
                                                                                                                                      D.C. 20201
                                                                                                                                            20201




                                                                                SEP
                                                                                SEP 22 5 2008
                                                                                       5 2008





                 TO:
                 TO:                      Daniel C.
                                          Daniel C. Schneider
                                                    Schneider
                                          Acting Assistant Secretary
                                          Acting Assistant           for Children
                                                           Secretar for  Children and
                                                                                   and Families
                                                                                       Families





                 FROM:                    Daniel
                                          Daniel         R.
                                                 R. Levinson                 ~     12. ~
                                                                             Levinson  ~ ¡¿. ~

                                          Inspector General
                                          Inspector


                 SUBJECT:                 Review
                                          Review of
 of Improper Temporary Assistance for Needy Families Basic
                                          Assistance Payments in Vermont for April 1,I, 2006, Through March 31, 2007
                                          (A-OI-07-02504)


                 Attached is
                 Attached        is an
                                    anadvance
                                          advancecopy    copyofofour  ourfinal
                                                                            finalreport
                                                                                  reporton
                                                                                         onimproper
                                                                                            improperTemporary
                                                                                                      Temporar Assistance
                                                                                                                 Assistace for
                                                                                                                             for Needy
                                                                                                                                 Needy
                 Families      (TANF)
                 Families (T ANF)             basic
                                  basic assistace      assistance
                                                  payments              payments
                                                           in Vermont for April
    in Vermont for April 1,2006,
                                                                                                           1, 2006, through March 31,
                 2007. We
                 2007.      We will
                                  will issue
                                          issue this
                                                   this report
                                                          report to to the
                                                                        the Vermont
                                                                              Vermont Department
                                                                                        Department for
                                                                                                    for Children
                                                                                                        Children and
                                                                                                                 and Families
                                                                                                                       Families (the
                                                                                                                                 (the State
                 agency) within
                 agency)       within 55 business
                                             business days.days. The The Administration
                                                                             Administration for
                                                                                             for Children
                                                                                                 Children and
                                                                                                          and Families
                                                                                                               Families (ACF)
                                                                                                                         (ACF) and the
                 Office of Management and Budget requested this review.

                 The TANF program, which the Federal and State Governments jointly
                 The TANF program, which the Federal and State Governents
          jointly fund and
                                                                                                 and administer,
                                                                                                      administer, is a
                 block grant program that provides eligible families with work opportunities
                                                                                   opportunities and
                                                                                                 and other
                                                                                                      other assistance,
                                                                                                            assistance,
                 including basic assistance payments for such ongoing basic needs as food, clothing,
                                                                                                clothing, shelter, and
                                                                                                          shelter,
                 utilities. Federal
                             Federaland
                                     andState
                                         Statelaws,
                                               laws,regulations,
                                                     regulations,and
                                                                  andother
                                                                      otherrequirements
                                                                            requirementsestablish
                                                                                          establishTTANF
                                                                                                     ANF eligibility,
                                                                                                            eligibility,
                 payment, and documentation requirements.

                 Our objectives were to determine whether the State agency (1)   (i) made
                                                                                     made TANF
                                                                                          TANF basic
                                                                                                  basic assistance
                                                                                                        assistance
                 payments to or on behalf
                                    behalf of
                                           of recipient
                                              recipient families
                                                         families in
                                                                   in accordance
                                                                      accordance with
                                                                                  with Federal
                                                                                       Federal and
                                                                                               and State
                                                                                                    State requirements
                                                                                                           requirements
                 and adequately documented eligibility
                                               eligibility and
                                                           and payment
                                                               payment determinations andand (2)
                                                                                             (2) accurately
                                                                                                 accurately reported
                                                                                                              reported
                 basic assistance expenditures to  ACF.
                                                to ACF.

                 For the period April i,1,2006,
                 For the period April 
   2006, through
                                                 throughMarch
                                                         March31,
                                                               31,2007,
                                                                   2007,the
                                                                          theState
                                                                              Stateagency
                                                                                    agencymade
                                                                                           madesome
                                                                                                 someTTANF
                                                                                                        ANF basic
                                                                                                               basic
                 assistance payments that did not
                                                not meet
                                                    meet Federal
                                                         Federal and
                                                                 and State
                                                                     State requirements
                                                                           requirements and
                                                                                         and did
                                                                                             did not
                                                                                                 not adequately
                                                                                                     adequately
                 document all eligibility and payment determinations. TheTheState
                                                                              Stateagency
                                                                                    agencyaccurately
                                                                                           accuratelyreported
                                                                                                      reported basic
                                                                                                               basic
                 assistance expenditures
                            expenditures toto ACF.
                                              ACF.

                  We did not identify any errors in 135 ofthe
                 We did not identify any errors in 135 of 
 the 150
                                                                150 payments
                                                                    payments in our statistical sample.
                                                                                                sample. However,
                                                                                                          However, the
                                                                                                                    the
                  remaining 15 payments were improper. For 13 of these
                 remaining 15 payments were improper. For 13 of 
     these payments,
                                                                            payments, the
                                                                                      the recipient
                                                                                           recipient families
                                                                                                      families were
                                                                                                               were
                 ineligible
                 ineligible for
                            for T ANF basic
                                TANF   basic assistance or the payments were calculated improperly.
                                                                                          improperly. For
                                                                                                        For two
                                                                                                             two
Page 2 – Daniel C. Schneider


payments, the case files did not contain all required documentation supporting eligibility and
payment determinations.

Based on our sample results, we estimated that the overall TANF improper payment rate was
5.85 percent of the Federal dollars expended and 10 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$956,086 (Federal share) for 5,181 improper payments.

We recommend that the State agency:

   •   use the results of this review to help ensure compliance with Federal and State TANF
       requirements by (1) reemphasizing to recipients the need to provide accurate and timely
       information and (2) requiring its district office employees to verify eligibility information
       and maintain appropriate documentation in all case files,

   •   determine the current eligibility of all recipients identified in this review as improperly
       enrolled in the TANF program and ensure that further assistance is denied for those who
       remain ineligible, and

   •   recalculate assistance budgets for all recipients identified in this review as having
       received improperly calculated payments.

In its comments on our draft report, the State agency agreed with the need for continued
improvement and provided information on steps that it planned to take to implement the
recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or Michael J. Armstrong, Regional Inspector General for Audit
Services, Region I, at (617) 565-2689 or through e-mail at Michael.Armstrong@oig.hhs.gov.
Please refer to report number A-01-07-02504.


Attachment
              DEPARTMENT
              DEPA         OFHEAL
                   RTMENT OF  HEALTH
                                  TH &&HUMA
                                        HUMA  SERVICES


(;;

                                            N SERV ICES

(~
                                                                                                       OFFICE
                                                                                                       OFFICE OF
                                                                                                              OF INSPEC
                                                                                                                  INSPECTOR GENERAL
                                                                                                                        TOR GENER AL

                                                                                                       Office
                                                                                                        Offce of Audit Services
                                                                                                                       Services
                                                                                                       Region
                                                                                                        RegionII
                                                                                                       John
                                                                                                        John F.
                                                                                                             F. Kenned
                                                                                                                Kennedy  Federal Building
                                                                                                                       y Federal Building
                                                                                                       Boston,
                                                                                                        Boston,MA
                                                                                                                MA 02203
                                                                                                                    02203
                                                         SEP 30
                                                         SEP 3   2008
                                                               0 2008
                                 (617)
                                                                                                        (617)565-268 4
                                                                                                              565-2684



  Reportt Numb
  Repor   Number:
               er: A~O  1-07-02504
                   A~O 1-07-0 2504

   Mr. Stepha
  Mr.  Stephan  R. Dale
              n R.  Dale
   Commissioner
  Commissioner
  Vennont
  Vermo      Deparent
         nt Depar  tmentfor
                          forChildren
                             Childr en and Familes
                                       and Famili es
  i103
     03South
       SouthMain
               Main Street
                     Street
  Waterbur,
  Waterb       Vermont
          ury, Vermo  nt 05671-5920
                          05671 -5920

  Dear Mr.
  Dear Mr. Dale:
           Dale:

  Enclos
  Enclosed ised
                   is the U.S. Depar tment of Health
                the U.S. Deparent of 

                                                                  andServces
                                                                         Huma    n Servic     es (IllIS) , Office Inspec
                                                                                         Temporar Assistaceof       forInpector
                                                       Health and Hwnan       (HHS), Offce of 

  General          (OIG),final finalreport
                                       reportentitle
                                              entitled  "Review        of Improper                                          tor
                                                                                                                        Needy
  General (OIG),                                     d "Revi ew of Improper Tempo                rary Assist ance for Needy
  Familes
  Famili           Basic Assist
              es Basic       Assistaceance Payments
                                           Payme nts in      Vermont
                                                        in Vermo            for April 1, 2006, 1loughMarch 31, 2007."
                                                                        nt for April 1,200 6, Throu gh March 31, 2007."
  We will forward a copy of this            ths report
                                                 report toto the
                                                              the HHS
                                                                    HIlS action      officiall noted
                                                                                                noted on
                                                                                                       on the
                                                                                                            the following
                                                                                                                following page  for
  We   wil forward a copy of 

                                                                            action officia                                 page for
  review
  review       and    any    action     deemed
               and any action deeme d necessary. necessar.

  The HHS
  The    HHSaction actionofficia
                              offciall will
                                          will make
                                                 make finalfial determination
                                                                   determination as    to actions taen on all matters reported.
                                                                                    as to action s taken on all matters reported.
  We    reques
  We request
                   t that you respon d to this official within 30 days from the date ofthis
             that you respond to this offcial with 30 days from the date of 


  response       shouldpresenpresentt anyany comm
                                                comments          or additio                              ths letter.
                                                                      additiona information that you believe    letter. Your
                                                                                                                        Youra
                                                                                                                  may have
  response should                                        ents or              nal inform ation that you believ e may have a
  bearng
  bearing on   onthe thefinal
                           finaldetenn
                                   detennation.
                                            ination .

  Pursuant to the princi ples of the
  Pursut to the principles of 

                                   theFreedom
                                        Freedoof 
 m of Inormation
                                                        Information Act, 5
                                                                         5 U.S.C.   § 552,
                                                                            U.S.C . § 552, as
                                                                                            as amend
                                                                                               amended    by
                                                                                                      ed by
  Public Law 104-231, OIG reports generally
  Public Law 104-231, OIG report 

                                           generally are made
                                                           made availa
                                                                 available to the public to the extent the
                                                                       ble to the public to the extent the
  information
  information isisnot
                   notsubjec
                       subject
                             t totoexemp
                                    exemptions
                                             tions ininthe
                                                        theAct
                                                            Act(45
                                                                (45 CFR par 5). Accordigly,     this report
                                                                   CFR part 5). Accordingly, this report
  will be posted on the Intern et at http://oig.hhs.gov.
  will be posted  on the Internet   at  htt://oig.hhs.gov.



  If
  Ifyou
     you have
         have any questions
              any questi     or comments
                         ons or comm ents about    ths report, please do not hesitate to call me,
                                           about this   report, please do not hesita te to call me,
  or
  or contact
     contact George Nedder,
             George Nedde     Audit Manager,
                           r, Audit Manager, atat (617)   565-3463 or through e-mail at
                                                   (617) 565-3463 or throug h e-mail at
  George.Nedder(goig.hhs.gov.
  George.Nedder@oig.hhs.gov. Please
                                  Pleaserefer
                                         referto
                                               to report  number A-OI-07-02504 in all
                                                   report numbe r A-01- 07-025 04 in all
  correspondence.
  correspondence.

                                                              Sincerely,
                                                              Sincerely,




                                                           ~nt:

                                                             Michael J. Arms rong
                                                             Regional
                                                             Regional Inspector
                                                              for
                                                                       Inspec tor General
                                                               for Audit
                                                                   Audit Services
                                                                         Servic es
                                                                                  Gener al



  Enclosure
  Enclosure
Page 2 - Mr. Stephan R. Dale


Direct Reply to HHS Action Official:

Mr. John Parnagian
Acting Regional Administrator
Administration for Children and Families
U.S. Department of Health and Human Services
JFK Federal Building, Room 2000
Boston, Massachusetts 02203
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF IMPROPER
  TEMPORARY ASSISTANCE FOR
    NEEDY FAMILIES BASIC
   ASSISTANCE PAYMENTS IN
  VERMONT FOR APRIL 1, 2006,
   THROUGH MARCH 31, 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-01-07-02504
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Temporary Assistance for Needy Families (TANF) program, a block grant program,
provides eligible families with work opportunities and other assistance, including basic
assistance payments for such ongoing basic needs as food, clothing, shelter, and utilities. The
Federal and State Governments jointly fund and administer the TANF program. The
Administration for Children and Families (ACF), Office of Family Assistance, administers the
program at the Federal level.

Federal and State laws, regulations, and other requirements establish TANF eligibility, payment,
and documentation requirements. To be eligible for TANF, a needy family must, among other
requirements, include a minor child or pregnant woman, not exceed established time limits for
receiving assistance, engage in work activities, not exceed income thresholds established by the
State, meet citizenship and residency requirements, submit a written application for benefits, and
furnish the Social Security number of each family member. The State must maintain records on
the provision of assistance, including facts to support eligibility and payment determinations.

In Vermont, the Department for Children and Families, Agency of Human Services (the State
agency), administers the TANF program. The State agency’s district offices determine the
eligibility of applicants and the payment amounts for basic assistance. For the period April 1,
2006, through March 31, 2007, the State agency made 51,811 monthly basic assistance payments
totaling $26,212,754 ($16,330,546 Federal share) to TANF recipients.

ACF and the Office of Management and Budget (OMB) requested this review.

OBJECTIVES

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

SUMMARY OF FINDINGS

For the period April 1, 2006, through March 31, 2007, the State agency made some TANF basic
assistance payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations. The State agency accurately reported basic
assistance expenditures to ACF.

We did not identify any errors in 135 of the 150 payments in our statistical sample. However,
the remaining 15 payments were improper:

   •   For 13 payments, the recipient families were ineligible for TANF basic assistance or the
       payments were calculated improperly.



                                                i
    •   For two payments, the case files did not contain all required documentation supporting
        eligibility and payment determinations.

Based on our sample results, we estimated that the overall TANF improper payment rate was
5.85 percent of the Federal dollars expended and 10 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$956,086 (Federal share) for 5,181 improper payments, including $949,523 for 4,836
overpayments and $6,563 for 345 underpayments. The following table summarizes our
statistical estimates.

                           Statistical Estimates of Improper Payments

                                                Improper Payment Rate       Improper Payments
                                                 Federal     No. of        Federal       No. of
                  Error Category
                                                 Dollars    Payments       Dollars      Payments
   Eligibility and payment calculation errors     5.33%       8.67%       $870,770        4,490
   Documentation errors                           0.52%       1.33%          85,315         691

        Overall                                  5.85%       10.00%       $956,086*       5,181
*Does not add to total because of rounding.


RECOMMENDATIONS

We recommend that the State agency:

    •   use the results of this review to help ensure compliance with Federal and State TANF
        requirements by (1) reemphasizing to recipients the need to provide accurate and timely
        information and (2) requiring its district office employees to verify eligibility information
        and maintain appropriate documentation in all case files,

    •   determine the current eligibility of all recipients identified in this review as improperly
        enrolled in the TANF program and ensure that further assistance is denied for those who
        remain ineligible, and

    •   recalculate assistance budgets for all recipients identified in this review as having
        received improperly calculated payments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency concurred with the need for continued
improvement and provided information on steps that it planned to take to implement the
recommendations. The State agency also expressed its concerns about developing a national
TANF payment error rate and about posting our individual State reports on the Internet before
the eight-State review process is complete. The State agency’s comments are included in their
entirety as Appendix E.


                                                   ii
OFFICE OF INSPECTOR GENERAL RESPONSE

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
annual amount of improper payments in their programs and to report that estimate to Congress.
ACF and OMB requested this review of the TANF program for fiscal year 2008 performance
and accountability reporting.

With respect to posting reports on the Internet, the Consolidated Appropriations Act of 2008
(Public Law 110-161), section 746, requires that each Office of Inspector General post on its
Web site any public report or audit issued within 1 day of its release.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Improper Payments Information Act of 2002..........................................................1
              Temporary Assistance for Needy Families Program ...............................................1
              Vermont’s Temporary Assistance for Needy Families Program.............................2
              Federal and State Requirements Related to Temporary Assistance for Needy
                Families Basic Assistance....................................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
               Objectives ................................................................................................................3
               Scope .......................................................................................................................3
               Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................5

          IMPROPER PAYMENTS ...................................................................................................6
               Eligibility and Payment Calculation Errors .............................................................6
               Documentation Errors..............................................................................................8

          CONCLUSION....................................................................................................................9

          RECOMMENDATIONS.....................................................................................................9

          STATE AGENCY COMMENTS......................................................................................10

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................10

APPENDIXES

          A – FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          B – STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          C – SAMPLE DESIGN AND METHODOLOGY

          D – SAMPLE RESULTS AND ESTIMATES

          E – STATE AGENCY COMMENTS




                                                                    iv
                                                INTRODUCTION

BACKGROUND

The Administration for Children and Families (ACF) and the Office of Management and Budget
(OMB) requested this review of the Temporary Assistance for Needy Families (TANF) program
for fiscal year 2008 performance and accountability reporting.

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (Public Law 107-300) requires Federal
agencies to estimate and report to Congress on the annual amount of improper payments in their
programs, the causes of the improper payments, and the corrective actions taken. Section 2(d)(2)
of this Act (31 U.S.C. § 3321) states that an improper payment:

           . . . (A) means any payment that should not have been made or that was made in
           an incorrect amount (including overpayments and underpayments) under
           statutory, contractual, administrative, or other legally applicable requirements;
           and (B) includes any payment to an ineligible recipient, any payment for an
           ineligible service, any duplicate payment, payments for services not received, and
           any payment that does not account for credit for applicable discounts.

To clarify this definition, OMB Circular A-123, Appendix C, part I.A, states that “when an
agency’s review is unable to discern whether a payment was proper as a result of insufficient or
lack of documentation, this payment must also be considered an error.”

Temporary Assistance for Needy Families Program

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law
104-193) established the TANF program to help families progress from welfare to self-
sufficiency. The Federal and State Governments jointly fund and administer the program. At
the Federal level, the ACF Office of Family Assistance administers the program. Within broad
national guidelines established by Federal statutes, regulations, and other requirements, States
have significant flexibility in designing their programs and determining eligibility requirements.

The Federal Government provides TANF funds in the form of block grants, which are specified
amounts directly allocated to States. To be eligible for a TANF block grant, a State must submit
a State plan to ACF within the 27-month period prior to the Federal fiscal year in which the
funds are to be provided. The State plan is an outline of how each State will operate its TANF
program, including program administration, criteria for determining eligibility and delivering
benefits, and assurances against fraud and abuse. ACF reviews the State plan for completeness
but does not issue an approval. ACF has stated that a determination that a plan is complete does
not constitute its endorsement of State policies. 1



1
    See 64 Federal Register 17720, 17847 (April 12, 1999).


                                                             1
Pursuant to section 401 of the Social Security Act (the Act), the TANF program provides
assistance and work opportunities to needy families. As a general rule, States must use the funds
for eligible families with a minor child or pregnant woman and for one of the four purposes of
the TANF program, including providing assistance to needy families. 2 Federal regulations
(45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and other forms of
benefits designed to meet a family’s ongoing basic needs, including, but not limited to, food,
clothing, shelter, and utilities. Such assistance is referred to as “basic assistance.”

States may use various funding options to provide benefits and services under their TANF
programs (e.g., commingled Federal and State funds or segregated State funds). The funding
option chosen determines what specific requirements apply and whether a particular use of funds
is appropriate. Commingled Federal and State funds are subject to Federal laws and
requirements.

Vermont’s Temporary Assistance for Needy Families Program

In Vermont, the Department for Children and Families, Agency of Human Services (the State
agency), administers the TANF program (called the Reach Up program). During the audit
period, the State agency used the computerized ACCESS system to store and process TANF case
information, determine the eligibility of applicants, and calculate and track benefit amounts. The
State agency used the Vision system to process and pay TANF basic assistance benefits.

The State agency has opted to commingle Federal and State funds in its TANF program. During
the audit period, the State agency, on average, funded 62.3 percent of its basic assistance
expenditures from the Federal TANF block grant, and the State agency paid the remaining
37.7 percent.

The State agency requires individuals to submit written applications for TANF basic assistance.
The State agency’s district offices review the applications and determine whether individuals
meet TANF eligibility requirements. For each applicant determined eligible, the district office
uses the ACCESS system to determine the amount of assistance to be paid to the family. As part
of the application process, the district office notifies the applicant of his or her responsibility to
notify the district office of any changes that might affect eligibility or payment status. Every
6 months thereafter, the district office must verify any updated information and redetermine the
individual’s eligibility.

Federal and State Requirements Related to Temporary
Assistance for Needy Families Basic Assistance

The State agency must comply with certain Federal requirements in determining and
redetermining eligibility and payment amounts. Federal regulations (45 CFR §§ 205.51–205.60
and parts 260–264) set forth basic TANF eligibility requirements that States must impose on
families receiving assistance, including time limits and work requirements for adults.


2
 The other purposes of TANF are to (1) end the dependence of needy parents by promoting job preparation, work,
and marriage; (2) prevent and reduce out-of-wedlock pregnancies; and (3) encourage the formation and maintenance
of two-parent families (section 401 of the Act).


                                                       2
Appendix A of this report contains the specific Federal requirements related to TANF basic
assistance.

In addition, Vermont Statutes Annotated, Title 33, Chapter 11; Vermont guidance; and the
Vermont State plan establish TANF basic assistance requirements. Vermont Statutes Annotated,
Title 33, section 1103(c), provide that the Commissioner, Vermont Department for Children
and Families, must adopt rules for determining eligibility for Vermont’s TANF program. These
rules are contained in Vermont’s “State Policy Manual” (the State manual). The State plan
incorporates Federal requirements and establishes all other eligibility requirements, such as
income and resource levels and standards of need, 3 as set forth in State law and guidance.
Appendix B of this report contains the specific State requirements related to TANF basic
assistance.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

Scope

Our audit period covered April 1, 2006, through March 31, 2007. We did not review the overall
internal control structure of the Vermont TANF program. Rather, we reviewed the State
agency’s procedures relevant to the objectives of the audit.

We performed fieldwork from August 2007 to January 2008 at the State agency in Waterbury,
Vermont, and at the Vermont Department of Labor in Montpelier, Vermont.

Methodology

To accomplish our objectives, we:

    •   reviewed Federal and State laws, regulations, and other requirements related to TANF
        basic assistance eligibility and payment amounts;

    •   held discussions with ACF regional officials and with State officials to obtain an
        understanding of policies, procedures, and guidance for determining TANF basic
        assistance eligibility and payment amounts;

    •   obtained a list of TANF basic assistance payments for the period April 1, 2006, through
        March 31, 2007, from the State agency’s ACCESS system;
3
The State sets the standard of need based on the number of household members (referred to as “assistance group
members” in Vermont). The State uses the standard to determine eligibility for TANF basic assistance.


                                                        3
   •   combined all payments to or on behalf of each recipient family in a month and obtained a
       universe of 51,811 monthly payments totaling $26,212,754 ($16,330,546 Federal share);

   •   validated the universe of payments, including reported expenditures;

   •   calculated the average Federal share of Vermont’s TANF basic assistance payments for
       the audit period by dividing the Federal dollars listed on line 5A (basic assistance
       payments) of Vermont’s quarterly reports to ACF by the total dollars listed on line 5A;
       and

   •   selected a simple random sample of 150 payments from the universe of 51,811 monthly
       payments, as detailed in Appendix C.

For each of the 150 sample items, we determined whether the corresponding case file (electronic
or paper) contained sufficient information for the district office to have made a TANF basic
assistance eligibility determination on the date of the initial determination or redetermination.
We also attempted to obtain sufficient independent information to determine whether the
recipient family was eligible for TANF basic assistance and received the proper payment amount
on the payment date selected. Specifically, we determined whether:

   •   the case file contained a completed application from a representative of the recipient
       family;

   •   the case file contained a Social Security number for each member of the recipient family
       and, if so, whether the Social Security Administration (SSA) had issued the number to the
       family member;

   •   the recipient family resided in Vermont by checking driver’s licenses, rental agreements,
       utility bills, or Federal, State, or local government correspondence;

   •   each family member’s identity, including name and age, was adequately documented in
       the case file (e.g., birth certificates, adoption papers, court decrees, and passports);

   •   each family member’s citizenship status was adequately documented in the case file (e.g.,
       birth certificates, hospital records, birth data maintained by the State Vital Statistics Unit,
       and U.S. Citizenship and Immigration Services documentation);

   •   the recipient family’s income was at or below the income threshold required to be eligible
       for TANF basic assistance on the payment date selected by reviewing information in the
       case file and wage and unemployment compensation information from the Vermont
       Department of Labor, the SSA Beneficiary Data Exchange, and the Supplemental
       Security Income State Data Exchange;

   •   no member of the recipient family was a fugitive felon or parole violator by checking the
       Federal Bureau of Investigation’s National Crime Information Center files;



                                                 4
   •   the recipient family complied with child support requirements by reviewing information
       from the case file and the State agency’s Office of Child Support;

   •   assistance was not provided to any adult member, minor head of household, or minor
       spouse in the recipient family beyond allowable time limits by reviewing information
       from the State agency’s ACCESS system; and

   •   the parent or caretaker in the recipient family met work requirements by reviewing the
       case file.

We estimated, for the total universe of 51,811 TANF monthly basic assistance payments, the
total Federal dollar value of payments with eligibility or calculation errors and with
documentation errors (overpayments, underpayments, and combined over/underpayments). We
also estimated, for the total universe, the total number of these improper payments.

In addition, we determined the improper payment rate in dollars by dividing the estimated
improper Federal dollars by the total Federal dollars in the universe. We also determined the
improper payment rate for the number of payments in error by dividing the estimated number of
improper payments by the total number of payments in the universe.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency made some TANF basic assistance payments that did not meet Federal and
State requirements and did not adequately document all eligibility and payment determinations.
The State agency accurately reported basic assistance expenditures to ACF.

Of the 150 payments in our statistical sample, 15 payments totaling $2,768 (Federal share) were
improper because the recipient families were ineligible for TANF basic assistance, the payments
were calculated improperly, or the case files did not contain all required documentation
supporting eligibility and payment determinations. The 15 improper payments consisted of 14
overpayments totaling $2,749 and 1 underpayment totaling $19. We did not identify any errors
in the remaining 135 payments.

Based on our sample results, we estimated that the overall TANF improper payment rate was
5.85 percent of the Federal dollars expended and 10 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$956,086 (Federal share) for 5,181 improper payments, including $949,523 for 4,836
overpayments and $6,563 for 345 underpayments. (See page 9 for additional statistical
estimates.)




                                               5
IMPROPER PAYMENTS

Table 1 summarizes the errors noted in the 15 improper payments in our sample.

                           Table 1: Summary of Improper Payments
                                                                   Improper          No. of
                                                                    Federal         Improper
                          Type of Error
                                                                   Payments         Payments
 Eligibility and Payment Calculation Errors
     Recipient families were ineligible:
       Income threshold exceeded on payment dates                    $644               2
       Social Security number not furnished                           333               1
       Household composition requirements not met                     221               1
             Subtotal                                               $1,198              4

     Payments were calculated improperly:
       Incorrect household income                                   $1,177              6
       Incorrect shelter expenses                                     125               1
       Incorrect fuel and utility standard amounts                      21              2
             Subtotal                                               $1,323              9
             Subtotal                                               $2,521              13

 Documentation Errors
    Documentation was not sufficient to support eligibility
     and payment determinations                                        247              2
             Total                                                  $2,768              15


We have provided details on each of these payment errors to the State agency.

Eligibility and Payment Calculation Errors

Recipient Families Were Ineligible

Pursuant to 45 CFR § 263.2(b)(3), income and resource thresholds are established by the State
and must be included in the State plan. Generally, income thresholds vary based on the number
of family members in the household. Federal regulations (45 CFR §§ 205.51 and 205.55)
establish requirements for income and eligibility verification. These regulations, which govern
the Income and Eligibility Verification System, require a State to request information from other
agencies to verify individuals’ eligibility for assistance under the State plan and the correct
amount of assistance payments for applicants and recipients. The State manual, section 2220,
requires that applicants and recipients inform the State agency of any changes in circumstances
that might affect eligibility or payment amounts within 10 calendar days of the date that the
change becomes known to the recipient family.




                                                     6
Federal regulations (45 CFR §§ 205.52(a)(1) and (2)) require, as a condition of eligibility, that
each individual requesting TANF basic assistance furnish his or her Social Security number to
the State. If the individual cannot recall or was not issued a Social Security number, the
individual is required to apply to SSA for a number through procedures adopted by the State or
local agency. If such procedures are not in effect, the individual must apply directly for such
number, submit verification of such application, and provide the number upon its receipt.

Section 408(a)(1) of the Act requires that a State not use any part of the TANF grant to provide
assistance to a family unless the family includes a minor child who resides with the family or
includes a pregnant woman. The State manual, section 2301, requires that a recipient family
include one or more eligible dependent children. This section states that eligibility relating to a
child’s age has been established under law (Vermont Statutes Annotated, Title 33, section 1101,
as amended). The law specifies that an 18-year-old child is eligible if he or she is a full-time
student in a secondary school or an equivalent level of vocational/technical training and is
expected to complete high school or an equivalent program before reaching age 19.

Of the 150 sampled payments, 4 payments totaling $1,198 (Federal share) were made to or on
behalf of recipient families who did not meet Federal and State eligibility requirements:

   •   For two overpayments totaling $644 (Federal share), the recipient families’ household
       incomes exceeded the TANF basic assistance income threshold on the payment dates.

   •   For one overpayment totaling $333 (Federal share), the recipient family had not furnished
       the Social Security number of the only minor child in the family or provided
       documentation of an application for the Social Security number.

   •   For one overpayment totaling $221 (Federal share), the recipient family did not include
       an eligible child or a pregnant woman.

Payments Were Calculated Improperly

Pursuant to 45 CFR § 263.2(b)(3), income and resource thresholds are established by the State
and must be included in the State plan. Generally, income thresholds vary based on the number
of family members in the household. Federal regulations (45 CFR §§ 205.51 and 205.55)
establish requirements for income and eligibility verification. These regulations, which govern
the Income and Eligibility Verification System, require a State to request information from other
agencies to verify individuals’ eligibility for assistance under the State plan and the correct
amount of assistance payments for applicants and recipients. The State manual, section 2250,
states that income includes, but is not limited to, earnings from employment and unearned
income from sources such as unemployment benefits. All income except that specifically
excluded must be evaluated to establish the net income available to meet needs.

The State manual, section 2211, requires verification of selected items, including shelter costs, to
establish initial and continuing eligibility for TANF assistance. The State agency verifies shelter
costs through a form that the landlord completes and signs. A completed shelter expense form is
necessary to establish an appropriate housing allowance for an applicant.


                                                 7
The State manual, section 2245.3, contains requirements for applying housing allowances as
unearned income for recipient families residing in subsidized housing who must pay for their
own fuel and/or utilities. These costs are often subsidized through heating assistance programs,
and the subsidies are factored into the State agency’s basic assistance housing allowances. To
compensate for the potential inequity, the standard amount to be counted as unearned income for
families who must pay for fuel or fuel and utilities is $70, and the standard amount for families
who must pay for utilities only is $30. These standard allowances do not apply to families
residing in nonsubsidized housing.

Of the 150 sampled payments, 9 payments totaling $1,323 (Federal share) were made to or on
behalf of recipient families who were eligible for basic assistance but for whom payments were
calculated improperly:

   •   Six overpayments totaling $1,177 (Federal share) were calculated using incorrect income
       amounts.

   •   One overpayment totaling $125 (Federal share) was calculated using incorrect shelter
       expenses.

   •   Two payments totaling $21 (Federal share) were calculated using incorrect fuel and
       utility standard amounts. The two payments consisted of one overpayment of $2 and one
       underpayment of $19.

Documentation Errors

State agencies are required to maintain records regarding applications and eligibility
determinations for the provision of financial assistance. Included in such records should be facts
supporting initial and continuing eligibility determinations (45 CFR § 205.60(a)). OMB Circular
A-123, Appendix C, part I.A, states that when a Federal agency’s review is unable to discern
whether a payment was proper as a result of insufficient or lack of documentation, this payment
must be considered an error.

The State manual, section 2208, requires that an individual complete and sign an application
form furnished by the State agency to receive TANF aid or benefits or to have eligibility for such
aid or benefits considered. For an application to be considered complete, it must indicate
whether any member of the family has been convicted of a felony involving possession, use, or
distribution of a controlled substance for an act committed after August 22, 1996.

The State manual, section 2211.3, requires verification of selected items, including shelter costs
incurred. The policy defines verification as a written entry in the case record of third-party or
documentary confirmation of facts stated by an applicant when the State agency is processing an
initial application or eligibility redetermination.

The case files for two sampled payments totaling $247 (Federal share) did not contain adequate
documentation to support eligibility and payment determinations. For these overpayments, the




                                                8
missing documentation included an application covering the payment month and/or facts
supporting shelter expenses.

CONCLUSION

Some of the sampled payments did not meet Federal and State eligibility, payment, or
documentation requirements. For these payments, (1) recipient families did not fully disclose
information at the time of application or eligibility redetermination and did not notify the State
agency’s district offices of changes in financial situation or other changes affecting eligibility,
(2) the district offices did not verify all information provided to support applications, or (3) the
district offices did not maintain appropriate documentation to support eligibility and payment
determinations.

Based on our sample results, we estimated that the TANF improper payment rate was
5.85 percent of the Federal dollars expended and 10 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$956,086 (Federal share) for 5,181 improper payments, including $949,523 for 4,836
overpayments and $6,563 for 345 underpayments. Table 2 summarizes our statistical estimates.
(See Appendix D for details on our sample results and estimates.)

                             Table 2: Statistical Estimates of Improper Payments

                                                         Improper Payment Rate    Improper Payments
                                                          Federal     No. of      Federal     No. of
                      Error Category
                                                          Dollars    Payments     Dollars    Payments
      Eligibility and payment calculation errors           5.33%      8.67%      $870,770     4,490
      Documentation errors                                 0.52%      1.33%        85,315       691
            Overall                                       5.85%       10.00%     $956,086*    5,181
*Does not add to total because of rounding.


We are not recommending recovery of the overpayments identified in this report primarily
because ACF decided to assess penalties 4 in the TANF program rather than take disallowances
in response to audit findings.

RECOMMENDATIONS

We recommend that the State agency:

       •    use the results of this review to help ensure compliance with Federal and State TANF
            requirements by (1) reemphasizing to recipients the need to provide accurate and timely
            information and (2) requiring its district office employees to verify eligibility information
            and maintain appropriate documentation in all case files,
4
    Penalties are set forth in section 409 of the Act.


                                                            9
   •   determine the current eligibility of all recipients identified in this review as improperly
       enrolled in the TANF program and ensure that further assistance is denied for those who
       remain ineligible, and

   •   recalculate assistance budgets for all recipients identified in this review as having
       received improperly calculated payments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency concurred with the need for continued
improvement and provided information on steps that it planned to take to implement the
recommendations. The State agency said that it had provided documentation to rebut one of our
error determinations.

The State agency also expressed its concerns about developing a national TANF payment error
rate because of the wide variations in programs across the Nation. The State agency requested
that we refrain from posting our individual State reports on the Internet until the entire eight-
State review process is complete and all reports are final.

The State agency’s comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the documentation that the State agency provided and found no basis for revising
our error determination.

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
annual amount of improper payments in their programs and to report that estimate to Congress.
As stated on page 1 of this report, ACF and OMB requested this review of the TANF program
for fiscal year 2008 performance and accountability reporting.

With respect to posting reports on the Internet, the Consolidated Appropriations Act of 2008
(Public Law 110-161), section 746, requires that each Office of Inspector General post on its
Web site any public report or audit issued within 1 day of its release.




                                                10
APPENDIXES
                                                                                 APPENDIX A
                                                                                   Page 1 of 3


    FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   Section 401 of the Social Security Act (the Act) states that one purpose of the Temporary
    Assistance for Needy Families (TANF) program is to provide assistance to needy
    families.

•   The Federal Register, Vol. 64, No. 69, page 17825 (April 12, 1999) defines a needy
    family as one that is financially deprived, i.e., lacking adequate income and resources.

•   Regulations (45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and
    other forms of benefits designed to meet a family’s ongoing basic needs (i.e., food,
    clothing, shelter, utilities, household goods, personal care items, and general incidental
    expenses), as well as supportive services, such as transportation and childcare provided to
    families whose household heads are not employed.

•   Regulations (45 CFR § 263.2(b)) state that cash assistance benefits may be provided only
    to or on behalf of eligible families.

•   Section 408(a)(1) of the Act requires that a State not use any part of the grant to provide
    assistance to a family unless the family includes a minor child who resides with the
    family or includes a pregnant woman.

•   Section 408(a)(4) of the Act requires that a State not use any part of the TANF grant to
    provide assistance to an individual who has not attained 18 years of age, is not married,
    has a minor child at least 12 weeks of age in his or her care, and has not successfully
    completed a high school education or its equivalent.

•   Section 408(a)(7) of the Act and 45 CFR § 264.1(a)(1) provide that a State may not use
    Federal TANF funds to provide assistance to a family that includes an adult who has
    received Federal assistance for more than 60 cumulative months. However, 45 CFR
    § 264.1(c) allows States the option to extend assistance beyond the 5-year limit for up to
    20 percent of the average monthly number of families receiving assistance during the
    fiscal year on the basis of hardship, as defined by the State, or battery of a family
    member.

•   Regulations (45 CFR § 261.10(a)(1)) require that a parent or caretaker receiving
    assistance engage in work activities when the State has determined that the individual is
    ready to do so or when the individual has received assistance for a total of 24 months,
    whichever is earlier.

•   Regulations (45 CFR §§ 205.52(a)(1) and (2)) require, as a condition of eligibility, that
    each applicant for or recipient of aid furnish his or her Social Security number to the
    State or local agency. If the individual cannot recall or was not issued a Social Security
                                                                                                 APPENDIX A
                                                                                                   Page 2 of 3

        number, the individual is required to apply to the Social Security Administration (SSA)
        for a number through procedures adopted by the State or local agency. If such
        procedures are not in effect, the individual must apply directly for such a number, submit
        verification of such application, and provide the number upon its receipt.

    •   Regulations (45 CFR § 205.52(g)) require the State agency to submit all unverified Social
        Security numbers to SSA for verification. 1

    •   Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
        (Public Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646) requires a TANF
        recipient to be a citizen or national of the United States or a qualified alien. Legal
        resident aliens and other qualified aliens who entered the United States on or after
        August 22, 1996, are ineligible for assistance for the first 5 years after entry.

    •   Regulations (45 CFR § 263.2(b)(3)) state that TANF basic assistance income and
        resource thresholds are established by the State and must be included in the State plan.
        The income and resource thresholds, which are subject to adjustments, vary based on the
        number of members in the household.

    •   Regulations (45 CFR §§ 205.51 and 205.55) establish requirements for income and
        eligibility verification. These regulations governing the Income and Eligibility
        Verification System require States to request information from other Federal and State
        agencies to verify individuals’ eligibility for assistance under the State plan and the
        correct amount of assistance payments for applicants and recipients.

    •   Regulations (45 CFR § 264.30(a)) require the State agency to refer to the child support
        enforcement agency all appropriate individuals in the family of a child for whom
        paternity has not been established or for whom a child support order needs to be
        established, modified, or enforced. Referred individuals must cooperate in establishing
        paternity and in establishing, modifying, or enforcing a support order with respect to the
        child.

    •   Section 408(a)(2) of the Act provides that if an individual does not cooperate with the
        State in establishing paternity or in establishing, modifying, or enforcing a support order,
        the State must reduce assistance by at least 25 percent or may deny the family any
        assistance.

    •   Section 408 of the Act prohibits assistance for individuals who (1) fail to assign support
        rights to the State, (2) fail to attend high school or an equivalent training program when
        the individual is a teenage parent, (3) fail to reside in an adult-supervised setting when the
        household head is a teenager, (4) are fugitive felons or parole violators, or (5) are minor


1
 The State agency may accept as verified a Social Security number provided directly to the State agency by SSA or
by another Federal or federally assisted benefit program that has received the number from SSA or has submitted it
to SSA for verification.
                                                                                APPENDIX A
                                                                                  Page 3 of 3

    children absent from the home or parents who fail to notify the State agency of the
    absence.

•   The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
    Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646), section 115(a)(1), prohibits
    assistance for individuals who have been convicted of a drug-related felony.

•   Regulations (45 CFR § 205.60(a)) require State agencies to maintain records regarding
    applications and eligibility determinations for the provision of assistance. Included in
    such records should be facts supporting initial and continuing eligibility determinations.

•   Regulations (45 CFR part 265) establish that States must report TANF financial data on a
    quarterly basis to ACF. Pursuant to 45 CFR §§ 265.7(a) and 265.4(a), each State’s
    quarterly reports must be complete, accurate, and filed within 45 days of the end of the
    quarter. A complete and accurate report means that (1) the reported data accurately
    reflect information available to the State in case records, financial records, and automated
    data systems; (2) the data are free from computational errors and are internally consistent;
    and (3) the reported data include all applicable elements (45 CFR § 265.7(d)).
                                                                                  APPENDIX B
                                                                                    Page 1 of 3

     STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   The Vermont “State Policy Manual” (the State manual), section 2200.1, changed the
    name of the Aid to Needy Families with Children (ANFC) program to Reach Up,
    formerly the name of ANFC’s welfare-to-work program.

•   Vermont Statutes Annotated, Title 33, section 1103, establish the eligibility and benefit
    levels of the Reach Up program and require that the Commissioner, Vermont Department
    for Children and Families, adopt rules for determining eligibility.

•   The State manual, section 2242, requires that a Reach Up assistance group include one or
    more eligible dependent children.

•   The State manual, section 2242.73, specifies that aliens granted lawful temporary or
    permanent resident status under the Immigration and Control Act of 1986 are disqualified
    from eligibility for ANFC benefits for the first 5 years after their temporary resident
    status is granted.

•   The State manual, section 2208, requires that an individual complete and sign an
    application form furnished by the Department for Children and Families, Agency of
    Human Services (the State agency), to receive aid or benefits or to have eligibility for
    such aid or benefits considered. For an application to be considered complete, it must
    indicate whether any member of the family has been convicted of a felony involving
    possession, use, or distribution of a controlled substance for an act committed after
    August 22, 1996.

•   Pursuant to the State manual, sections 2218 and 2218.1, Reach Up benefits continue, as
    authorized, until they are changed or terminated because of a change in circumstances;
    the expiration of an eligibility period; the failure of a participant to provide sufficient
    information to allow an eligibility review; or the failure of an adult subject to sanctions to
    comply with requirements of the Reach Up service components, which include case
    management services, support services, and referrals to assist families in becoming self-
    sufficient.

•   The State manual, section 2220.1, requires that a full review of the continuing eligibility
    of all assistance groups be completed within 6 months of the initial eligibility
    determination or the last full eligibility review.

•   The State manual, section 2234.1, requires that underpayments of assistance resulting
    from State agency errors be promptly corrected retroactively. The retroactive corrected
    payment must (1) be computed from the time when the information was available to the
    State agency, (2) be authorized only for 12 months from the month in which the
    underpayment is discovered irrespective of current receipt of or eligibility for benefits,
    and (3) not be considered as income or as a resource in the month paid or in the following
    month.
                                                                                 APPENDIX B
                                                                                   Page 2 of 3

•   The State manual, section 2234.2, states that overpayments of assistance, whether
    resulting from administrative or client error or from payments made pending a fair
    hearing that is subsequently determined in favor of the State agency, are subject to
    recoupment. The State agency may recover an overpayment by having the recipient
    repay the overpaid amount or by reducing payments to the assistance group.

•   Pursuant to the State manual, section 2363, all participating adults must fulfill their work
    requirement, unless deferred, when they are ready for work.

•   The State manual, section 2182, states that under Federal law, families in which at least
    one member has received 60 or more months of Federal TANF assistance as an adult are
    ineligible for assistance.

•   The State manual, section 2250, defines income as any cash payment or equivalent “in
    kind” that is actually available to the recipient. Sources of income include earnings from
    employment or self-employment and unearned income from sources such as
    unemployment benefits. All income except that specifically excluded must be evaluated
    to establish the net income available to meet needs.

•   The State manual, section 2211.3, requires verification of selected items, including
    shelter costs incurred. The policy defines verification as a written entry in the case record
    of third-party or documentary confirmation of facts stated by an applicant when the State
    agency is processing an initial application or eligibility redetermination for Reach Up
    financial assistance.

•   The State manual, section 2245.3, contains eligibility standards for housing allowances.
    A housing allowance standard amount, which, in most cases, represents a portion of the
    fuel and/or utility subsidy used by the U.S. Department of Housing and Urban
    Development in the calculation of rent for TANF families in subsidized housing, is
    considered unearned income under TANF. The standard amount for families who must
    pay for fuel or fuel and utilities is $70. The standard amount for families who must pay
    for utilities only is $30.

•   Pursuant to the State manual, section 2220, the State agency is responsible for notifying
    the applicant of the requirement to report any changes in circumstances within 10
    calendar days of the date that the change becomes known to the assistance group.
    Applicants must report changes that might affect eligibility or the amount of benefits
    (e.g., changes in income or resources, changes in the size or membership of the assistance
    group, new address, or termination of school attendance). Applicants and recipients must
    notify the district office of such changes.

•   The State manual, section 2273.4, states that the Office of Child Support is responsible
    for pursuit of support from legally liable parents. When eligibility for Reach Up has been
    granted to a family in which a parent is absent from the home for any reason other than
    death, the noncustodial parent must be referred to the Office of Child Support by
    completing specific forms.
                                                                                APPENDIX B
                                                                                  Page 3 of 3

•   The State manual, section 2332, states that a parent or other caretaker of a child included
    in the Reach Up assistance group is required to cooperate fully in establishing parentage
    and pursuing support from the noncustodial parent unless good cause for refusal to
    cooperate is claimed and the decision is pending or granted. Failure to cooperate, as
    determined by the Office of Child Support, will result in a 25-percent reduction in the
    amount of the family’s Reach Up grant.

•   The State manual, section 2301, states that eligibility based on a child’s age has been
    established under law (Vermont Statutes Annotated, Title 33, section 1101, as amended).
    Individuals under age 18 qualify as children. In addition, 18-year-olds are eligible if they
    are full-time students in a secondary school or an equivalent level of vocational/technical
    training and are expected to complete high school or the equivalent program before
    reaching age 19. Children who are eligible for TANF on the day before they reach age
    18 or 19 remain eligible for TANF for the full calendar month during which their 18th or
    19th birthday occurs.

•   Pursuant to the State manual, section 2303, the State agency must notify applicants that it
    uses Social Security numbers to administer the Reach Up program. The State agency
    must advise applicants how to apply for Social Security numbers and may not delay,
    deny, or discontinue assistance while the issuance and verification of such numbers is
    pending. Any member of the assistance group who refuses to furnish, verify, or apply for
    a Social Security number is ineligible for assistance.
                                                                                APPENDIX C
                                                                                  Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

SAMPLE OBJECTIVE

Our objective was to determine whether the State agency made TANF basic assistance payments
to or on behalf of recipient families in accordance with Federal and State requirements and
adequately documented eligibility and payment determinations.

AUDIT UNIVERSE

The universe consisted of all TANF basic assistance payments made for the 12-month audit
period that ended March 31, 2007.

SAMPLING FRAME

The sampling frame was a computer file containing 51,811 monthly basic assistance payments to
or on behalf of TANF recipients in Vermont for the 12-month period that ended March 31, 2007.
The total TANF reimbursement for the 51,811 payments was $26,212,754 ($16,330,546 Federal
share).

SAMPLE UNIT

The sample unit was a monthly TANF basic assistance payment to or on behalf of a recipient
family for the audit period. The payment included all basic assistance payments made to or on
behalf of the family for the month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 150 monthly TANF basic assistance payments.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, statistical sampling software, RAT-STATS 2007, version 1. We used the random
number generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the payments in our sampling frame and selected the sequential
numbers that correlated to the random numbers. We then created a list of 150 sampled items.
                                                                                    APPENDIX C
                                                                                      Page 2 of 2

CHARACTERISTICS TO BE MEASURED

We based our determination of whether each sampled payment was improper on Federal and
State laws, regulations, and other requirements. Specifically, if at least one of the following
characteristics was met, we considered the payment under review improper:

   •   The recipient family did not meet one or more eligibility requirements.

   •   The recipient family was eligible for assistance but received an improper payment
       amount (overpayment or underpayment).

   •   The case file did not contain sufficient documentation to support eligibility and payment
       determinations as required by Federal and State regulations.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We estimated the total Federal dollar value of
TANF basic assistance payments with eligibility or payment calculation errors and with
documentation errors (overpayments, underpayments, and combined over/underpayments). We
also estimated the total number of these improper payments.

In addition, we determined the improper payment rate for the dollars expended by dividing the
estimated improper Federal dollars by the total Federal dollars in the universe. We also
determined the improper payment rate for the number of payments in error by dividing the
estimated number of improper payments by the total number of payments in the universe.
                                                                                  APPENDIX D
                                                                                    Page 1 of 3

                             SAMPLE RESULTS AND ESTIMATES

  OVERALL SAMPLE RESULTS AND ESTIMATES

                                          Sample Details
                                                    Value of
                    Value of                        Sampled
                    Universe          No. of        Payments
                    (Federal        Payments        (Federal      Sample
                     Share)        in Universe       Share)        Size
                   $16,330,546        51,811         $48,349        150


                                     Overall Sample Results
                                               Value of            No. of
                                          Improper Payments       Improper
                                            (Federal Share)       Payments
                    Overpayments                $2,749               14
                    Underpayments                    19                1
                        Overall                   $2,768               15



                                      Overall Estimates
                    Limits Calculated for a 90-Percent Confidence Interval
                         Overall                 Overpayments                  Underpayments
                 Estimated Estimated         Estimated  Estimated           Estimated Estimated
                  Value of      No. of        Value of    No. of             Value of   No. of
                 Improper    Improper        Improper   Improper            Improper Improper
                 Payments    Payments        Payments   Payments            Payments Payments
Point estimate   $956,086         5,181          $949,523      4,836         $6,563       345
Lower limit        460,094        3,249           453,420      2,972         - 4,284          18
Upper limit      1,452,077        7,757       1,445,626        7,356         17,409       1,616



                       Calculation of Overall Improper Payment Rate
                                 Estimated improper Federal dollars          $956,086
  Dollar value of payments                                                                =        5.85%
                                  Total Federal dollars in universe         $16,330,546

                                 Estimated No. of improper payments           5,181
  Number of payments                                                                      =    10.00%
                                  Total No. of payments in universe           51,811
                                                                                  APPENDIX D
                                                                                    Page 2 of 3

  SAMPLE RESULTS AND ESTIMATES FOR ELIGIBILITY
  AND PAYMENT CALCULATION ERRORS

                 Sample Results—Eligibility and Payment Calculation Errors
                                             Value of           No. of
                                        Improper Payments      Improper
                                          (Federal Share)      Payments
                   Overpayments               $2,502              12
                   Underpayments                 19                  1
                      Overall                $2,521                 13


                   Estimates—Eligibility and Payment Calculation Errors
                    Limits Calculated for a 90-Percent Confidence Interval

                         Overall                 Overpayments                Underpayments
                 Estimated Estimated         Estimated  Estimated         Estimated Estimated
                  Value of      No. of        Value of    No. of           Value of   No. of
                 Improper    Improper        Improper   Improper          Improper Improper
                 Payments    Payments        Payments   Payments          Payments Payments
Point estimate   $870,770       4,490         $864,207      4,145           $6,563         345

Lower limit       384,423       2,698         377,767       2,428           - 4,284         18

Upper limit      1,357,118      6,952        1,350,648      6,545           17,409         1,616



     Calculation of Improper Payment Rate—Eligibility and Payment Calculation Errors
                              Estimated improper Federal dollars          $870,770
  Dollar value of payments                                                             =    5.33%
                               Total Federal dollars in universe         $16,330,546

                             Estimated No. of improper payments            4,490
  Number of payments                                                                   =    8.67%
                              Total No. of payments in universe            51,811
                                                                             APPENDIX D
                                                                               Page 3 of 3

SAMPLE RESULTS AND ESTIMATES FOR
DOCUMENTATION ERRORS

                           Sample Results—Documentation Errors
                                 Value of                 No. of
                            Improper Payments            Improper
                              (Federal Share)            Payments
                                   $247                     2



                           Estimates—Documentation Errors
                  Limits Calculated for a 90-Percent Confidence Interval
                                            Estimated    Estimated
                                             Value of      No. of
                                            Improper     Improper
                                            Payments     Payments
                           Point estimate    $85,315        691

                           Lower limit       - 25,127       124

                           Upper limit       195,757       2,141



             Calculation of Improper Payment Rate—Documentation Errors
                               Estimated improper Federal dollars      $85,315
Dollar value of payments                                                           =   0.52%
                                Total Federal dollars in universe    $16,330,546

                              Estimated No. of improper payments        691
Number of payments                                                                 =   1.33%
                               Total No. of payments in universe       51,811
                                                                                    APPENDIXE
                                                                                      Page 1 of2

  ~VERMONT                                                   Department for Children and Families
                                                             Commissioner's Office 5 North
                                                             103 South Main Street
  AGENCY OF HUMAN SERVICES'                                  Waterbury, VT 05671-5920
                                                             (802) 241-2100 Fax (802) 241-2980
                                                              www.dc£state.vt.us
. July 15,2008


   Mr. Michael J. Armstrong
   Regional Inspector General for Audit Services
  . Office of Audit Services - Region I
    JFK Federal Building
    Boston, MA 02203

   Re: Report Number: A-OI-07-02504

   Dear Mr. Armstrong,

   Thank you for your letter of June 19,2008 and the draft report entitled "Temporary Assistance
   for Needy Families Basic Assistance Payments in Vermont State for April 1, 2006 Through
   March 31, 2007." This letter will serve as the State ofVennont's formal response to the U.S.
   Department of Health and Human Services, Office of Inspector General draft report number A-
   01-07-02504.                                             .

   Before the specific recommendations contained within the report are addressed; I will reiterate
   the concerns expressed by Vermont and the other 7 states involved in the audit process to
   establ.ish a national payment error rate for the TANF program. These concerns have been jointly
   articulated in correspondence from The American Public Human Services Association, the
   National Association of State TANF Administrators,· and the National Association for Program
   Information. and Performance Management to HHS, OIG, and the Office of Management and
    Budget (OMB). In addition, representatives of the 8 affected states have met twice with federal
    officials to discuss these concerns.

    Vermont maintains its disagreement with the concept and validity of developing a national
   .payment error rate for a flexible block grant program such as TANF. We believe that because of
    the wide variations in TANF programs across the nation; such a comparison is meaningless and
    invalid.                                                    .

    We also respectfully request that the OIG refrain from either publishing and/or posting
    information on a specific state review to the·lnternet until the entire 8 state review process is
    complete and all reports are final. Posting the state's results without the larger national error rate
    as context will be confusing and misleading to the public.

     Regarding Vermont's specific findings, it is my understanding that there remains one case, Case
   . Number 64, which is still a matter of contention. We believe that we have provided
     documentation to rebut the claim of an error, but have not heard a definitive response as of this
     writing.
                                                                                 APPENDIXE
                                                                                   Page 2 of2


Vermont agrees with GIG's conclusions on procedures and controls and understands the
statistical estimates of improper payments that were calculated. Weare therefore actively
working to improve quality and prevent future errors in these areas.

We noted your draft cites the following three general recommendations:

    • Re-emphasize to recipients the need to provide accurate and timely information and
      require district office employees to verify eligibility information and maintain appropriate
      documentation in all case files.                                      .
    • Determine the current eligibility of all recipients identified in this review as improperly
      enrolled in the TANF program and ensure that further assistance is denied for those who
      remain ineligible.
    • Recalculate assistance budgets for all recipients identified in this review as having
       received improperly calculated payments.

 Our workers at The Department for Children and families (DCF) strive to make accurate and
 timely eligibility decisions based on necessary information and documentation. With regard to
 the above recommendations, we concur with the need for continued improvement and will stress
 this with employees and the citizens that we serve.

 We will share the results with the front-line staff so that they will be alerted to problem areaS.
 They·will also be instructed to review the cases found to be improper to ensure that enrollment
 criteria has been met. and that assistance is provided only to those that meet this criteria. With
 respect to the assistance budgets that OIG cited as being in error, the appropriate staff shall be
 instructed to review and make recalculations where necessary.

  We value the importance of accurate eligibility determinations for all of our benefit programs,
  both for the sake of recipients and the people paying for the service. We recognize the
  importance of close attention to these issues and consistent quality assurance measures.

  I want to thank you for the fine work done by your staff. They conducted their work with
  professionalism and were willing to work with us around resolving areas of disagreement. The
  team members were courteous and worked hard to understand Vermont's Reach Up Program.

  Thank you for the opportunity to"respond to this report._

  Sincerely yours,


         ~~k-
   Stephen R. Dale, Commissioner
   Department for Children and Families


   Cc: George A. Nedder, GIG Audit Manager
       Joseph J. Patrissi, Deputy Commissioner Economic Services Division
